126769

2020 IL App (5th) 180280-U

NOTICE
Decision filed 11/23/20. The
text of this decision may be
changed or corrected prior to

NOTICE
This order was filed under

NO. 5-18-0280

Supreme Court Rule 23 and

IN. THE

by any party except in the

may not be cited as precedent

the filing of a Petition for
Rehearing or the disposition of
the same.

limited circumstances allowed
under Rule 23(e)(1).

APPELLATE COURT OF ILLINOIS
FIFTH DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
GARRETT McELVEEN,
Defendant-Appellant.

r

)
)
)
)

Appeal from the
Circuit Court of
Jefferson County.

)

No. 15-CF-463

)
)
)
)

Honorable
Barry L. Vaughan,
Judge, presiding.

JUSTICE BARBERIS delivered the judgment of the court.
Justices Cates and Wharton concurred in the judgment.
ORDER
The judgment of conviction is affirmed where defendant waived review of
his claim regarding the state’s attorney’s conflict of interest by voluntarily,
and knowingly, entering into a guilty plea.

12

Defendant, Garrett V. McElveen, entered an open guilty plea to three counts of

predatory criminal sexual assault of a child (720 ILCS 5/11-1.40(a)(1) (West 2014)) in
exchange for a dismissal of eight counts of predatory criminal sexual assault of a child
and one count of sexual exploitation of a child (\4. § 11-9.1(a)), for which he received an
aggregate 120-year prison sentence (40-year consecutive sentence on each of the three
counts). Defendant appeals, contending that a conflict of interest arose when his

1

SUBMITT E^-11972371 * Heather Thomas - 1/26/2021 12:50 PM

126769

appointed attorney, Jefferson County’s Chief Public Defender Sean Featherstun, was later
elected Jefferson County State’s Attorney. We affirm.
I. Background

13
14

On December 15, 2015, defendant was initially charged by information, but later

indicted with 11 counts of predatory criminal; sexual assault of a child (720 ILCS 5/111.40(a)(1) (West 2014) (counts I-IV), (720 ILCS 5/11-1.40(a)(1) (West 2012) (counts VXI)). Class X felonies. The indictment alleged that counts I through IV occurred between
January 2015 and December 7, 2015, and counts V through XI occurred from July 2013
through September 2015. Each count carried a mandatory consecutive enhanced
sentencing range of 6 to 60 years (see 720 ILCS 5/11-1.40(b)(1) (West 2014) (counts IIV), 720 ILCS 5/ll-1.40(b)(l) (West; 2012) (counts V-XI)); (see also section 5-8-4 of the
Unified Code of Corrections (730 ILCS 5/5-8-4(d)(2) (West 2014) (counts I-IV), 730
ILCS 5/5-8-4(d)(2) (West 2012) (counts V-XI)). The indictment also contained one count
of sexual exploitation of a child (720 ILCS 5/11-9.1(a) (West 2012)), a Class 4 felony.
The next day, the circuit court appointed Featherstun to represent defendant in the matter.

15

On December 22, 2015, the case was called for arraignment and Assistant Public

Defender (APD) Scott Quinn appeared with defendant. Featherstun was not present. On
APD Quinn’s oral motion, without defendant’s approval, the circuit court appointed APD
Quinn to represent defendant, effectively removing reainersiun as defendant’s courtappointed attorney for “judicial economy purposes.” APD Quinn then asked for a brief
postponement of defendant’s arraignment to allow him time to discuss the charges with

defendant. The court subsequently reset the arraignment on January 6, 2016. On January
2

jAnthnp Thnmoc - 1/9fi/9091 19*50 PM

126769

4, 2016, APD Quinn filed the first motion for discovery and then represented defendant at
the arraignment on January 6, 2016.
H6

On January 20, 2016, the circuit court held the first of many status and motion

hearings in which APD Quinn appeared on behalf of defendant. In November 2016,
Featherstun was elected Jefferson County State’s Attorney.
117

On January 9, 2017, the circuit court held the first status hearing since Featherstun

took office. The sole purpose of the hearing was to set a date for a contested hearing,
pursuant to section 115-10 of the Code of Criminal Procedure of 1963 (725 ILCS 5/11510 (West 2016)), concerning the State’s January 5, 2017, motion mYvmme to admit
certain hearsay statements made by the victim at trial. During the status hearing,
Assistant State’s Attorney (ASA) Darrin Rice informed the court that Featherstun had
been originally assigned to represent defendant, but he understood that Featherstun had
not been involved in the case prior to APD Quinn’s appointment as defendant’s counsel.
APD Quinn initially responded that he was unable to take a position as to Featherstun’s
past involvement, but later, after indicating that his memory had been “jogged,” clarified
his stance as follows:
“I do recall that *** Featherstun was appointed, and it’s my understanding
that he never went over and spoke with [defendant]. He pretty quickly reassigned
[the case] to me, but I don’t—just off the top of my head, I don’t know what the
law says about whether a
conflict starts up immediately or whatever. And so
I think that the State’s Attorney and Appellate Prosecutor did a little research for
the State’s Attorney’s office about that. I wasn’t privy to what their conclusions
were. I will take no position on that at this time.”
The court then set the matter for further hearing.
3

SUBMITTED - 11972371 - Heather Thomas -1/26/2021 12:50 PM

126769

P

On January 19, 2017, the circuit court heard argument as to whether a special

prosecutor should be appointed due to Featherstun’s initial assignment as defendant s
public defender and his subsequent position as the state’s attorney. The State argued that
no conflict of interest existed because Featherstun’s appointment “was completely
superficial,” with no substantive interaction, and only existed as a “docket entry made ”
ASA Rice proffered that Featherstun did not meet with defendant, other than a brief
encounter in the courtroom, where he introduced defendant to APD Quinn. Relying on
n.'Mmw,

196 Ill. App. 3d 321 (1990), ASA Rice maintained that no conflict of

interest existed, because (1) Featherstun never discussed details of the case with
defendant, (2) the prosecution of the case was assigned to himself and ASA Sonja Ligon,
and (3) Featherstun was not involved in the case after becoming the state’s attorney.

P

In response, APD Quinn stated the following. Featherstun was appointed to

represent defendant before APD Quinn, and Featherstun was APD Quinn s immediate
supervisor at that time. He did not recall Featherstun “doing any supervisory acts or
telling APD Quinn anything about defendant’s case other than the charges. APD Quinn
further noted that Featherstun is now in a supervisory role over ASAs Rice and Ligon. As
such, APD Quinn would continue to raise the; objection over concerns that “the
appearances” of a potential conflict of interest involving the state’s attorney’s office were
clouding the ultimate finality of this case. APD Quinn clarified that his objection was not
an attack on the integrity of Featherstun, ASA Rice, or ASA Ligon. Following APD
Quinn’s remarks, the following colloquy occurred:

4

iRMITTED - 11972371 - Heather Thomas • 1/26/2021 12:50 PM

126769

“THE COURT: Okay: And did you say that Public Defender Sean
Featherstun had no contact with this client?
MR. RICE [(ASSISTANT STATE’S ATTORNEY)]: Yes, sir—or, yes,
ma’am. Yes.
THE COURT: Okay.
MR. RICE: I mean, other than what I mentioned. There was a brief
exchange, I believe, whenever he was brought to court. That’s what has been
relayed to me, which I’m proffering for the Court’s consideration.
THE COURT: Okay.
MR. QUINN ([DEFENSE COUNSEL)]: And I—I’ll agree with that. I—I
recall speaking—you know, being—having an introduction or something in the
back hallway, but I don’t recall any other—any other mutual contact between ***
Featherstun and [defendant] and I.
* * *

THE COURT: All right. Okay. I’m going to find that there is no conflict in
this case. Okay?
MR. QUINN: That’s fine.
MR. RICE: Yes. Yes, your Honor.”
The circuit court then entered an order finding that no conflict of interest existed.
U10

On June 30; 2017, a final pretriaLhearihg was held. ASA Ligon, APD Quinn, and

defendant were present when defendant waived his right to a jury trial. However, shortly
after the court accepted defendant’s waiver, Featherstun entered the courtroom. APD
Quinn requested to continue the trial setting to prepare a defense strategy for a bench
trial, as opposed to a jury trial. ASA Ligon objected because the witnesses had been
subpoenaed and she wanted to ensure that the delay was attributable to defendant. ASA
Ligon further expressed that if the court did continue the trial, she wanted “the quickest
trial date available,” and that she would prefer an August trial date. During the
5

SUBMITTED* 11972371 - Heather Thomas - 1/26/2021 12:50 PM

126769

discussion, and in response to the court’s inquiry, Fedtherstun responded that the State
would not be prejudiced by a delay of the trial. According to Featherstun, the witnesses
were all local, “doing well” and under subpoena. After the court asked Featherstun to
suggest a date, the following exchange occurred:
“MR, FEATHERSTUNi[(STATE’S ATTORNEY)]: Judge, I—wasn’t a
bench trial—did they do a waiver?
THE COURT: It was a waiver ofjury.
MR. FEATHERSTUN: So that pretty much frees us up for whatever day
your honor would set and we could accommodate.”
After further discussion, the court set the case for a three-day trial beginning September
19,2017. Featherstun agreed with the: court that “those dates would be good.”

1111- On September 18, 2017, APD Quinn informed the circuit court that the parties had
reached an agreement, and, the following day, the court conducted a plea hearing.
Defendant entered; an open guilty plea to three counts of predatory criminal sexual assault
of a child (720 ILCS 5/11-1.40(a)(1) (West 2014)) (counts I, III, and V) in exchange for a
dismissal of the remaining nine counts. While giving the statutory admonishments, the
court informed, defendant that the sentencing, range was 6 to 60 years in prison on each
count, but the sentences were mandatorily consecutive, making the total sentencing range
18 to 180 years. Defendant acknowledged that he understood the sentencing range and
that no promises had been made regarding the:sentence. The court ordered a presentence
investigation report (PSI), to check on, the progress of the PSI, and set the matter for a
status hearing on November 3, 2017.; The case was subsequently set for sentencing.

6

lOMITTCn

. 11070^71 . Hpatlw Thomas - 1/26/2021 12:50 PM

126769

112

On January 19, 2018, the-sentencing hearing was held. The circuit court sentenced

defendant to consecutive prison terms of 40 years on each count, thereby imposing a
sentence totaling 120 years. Defendant later filed a timely motion to reconsider sentence
requesting the court to review its findings regarding the sentencing factors and reduce his
sentence accordingly. Defendant did not seek to withdraw his guilty plea at that time.
If 13

On May 1, 2018, the circuit court held a hearing on defendant’s motion to

reconsider sentence. Featherstun, on behalf of the State, APD Quinn, and defendant, who
was in the custody of the Illinois Department of Corrections, were all present. The court
first inquired of APD Quinn whether he had been the attorney throughout the
proceedings. APD Quinn responded, “that’s correct.” Following APD Quinn’s argument
for a reduction in sentence, in which he argued that the 120-year sentence was too harsh
because it effectively amounted to a life sentence, Featherstun argued on behalf of the
State. Featherstun, arguing that the court imposed the proper sentence, stated that “you
can shudder to think where it might have gone over the next five years for this young
lady had her grandmother not walked in on what she walked in on.” Featherstun ended by
stating that the mid-range prison sentence was reasonable and that he “would stand on
prior arguments of

***

[ASA] Ligon that day at sentencing.” The court then denied

defendant’s motion to reconsider sentence and informed him of his appeal rights. This
timely appeal followed.
114
If 15

II. Analysis
On appeal, defendant claims that a

conflict of interest existed during the

pendency of his case that now warrants vacatur of his guilty plea, conviction, and
7

SUBMITTED -11972371 - Heather Thomas - 1/26/2021 12:50 PM

126769

sentence as well as the appointment of a special prosecutor on remand. Defendant argues
that the circuit court erred by not appointing a special prosecutor. In support, defendant
points out that Featherstun initially represented defendant, and, after Featherstun was
elected to the position of the state’s attorney, participated in defendant s prosecution by
representing the State during the entry of defendant’s jury trial waiver and, later, in
arguing against his motion to reconsider sentence. For that reason, defendant asserts that
the State had a
K 16

se conflict of interest during: the pendency of the case.

In response,' the State urges us not to reach the merits of defendant’s claim,

asserting that defendant waived any potential error by entering a guilty plea.
Alternatively, the State asserts that no'^etse. or potential conflict of interest existed
because Featherstun never participated in defendant’s defense before holding the state’s
attorney position.
K 17

The issue of whether a prosecutor labored under a

reviewed

se conflict of interest is

199 Ill. 2d 541, 544 (2002) (citing

185 111. 2d 546, 551 (1999)),.Before turning to the merits, we first consider the State’s
contention that defendant waived the issue by entering his guilty plea.
118

In support of its waiver argument, the State draws a factual distinction between the

case at bar and^^N.^estex; 66:111: 2d 162, L66, 169 (1977), where an ineffective
assistance of counsel claim was raised on appeal based on a conflict of interest. auu me
defendant’s earlier guilty plea was not deemed a waiver. InYjisXex, the defendant entered
a negotiated guilty plea to burglary and unlawful delivery of cannabis charges, in which
he received concurrent prison terms. \A. at 169. At the time of his plea, the defendant was
8

qmittph

. 11Q7?^71 - Heather Thomas - 1/26/2021 12:50 PM

126769

represented by an assistant public defender who had earlier filed motions and appeared
on three separate occasions as an assistant state’s attorney in the case. Y&. at 164. On
appeal from the burglary conviction, the Illinois Supreme Court determined that a
potential conflict of interest was present, and that the defendant had not knowingly
waived the right to be represented by a conflict-free assistant public defender. YA at 168169. The supreme court noted that the record did not establish that the defendant was “in
any manner admonished as to the significance of the potential conflict or that he was
actually aware that his counsel had previously appeared on behalf of the prosecution in
his burglary case.”YA The supreme court further found that no waiver existed because
the plea of guilty was entered with the advice and counsel of an assistant public defender
with a possible conflict of interest. Yd. at 169.
If 19

In response, defendant cites ^eo^Ye \. Courts, 288 Ill. App. 3d 1025, 1030

(1997), as a case more factually similar to the present case thanYjastet, as it involves a
conflicted state s attorney, rather than defense counsel. However, we find the court’s
reasoning in CoutIty^ provides less guidance than ^vaster, given that

did not

involve an affirmative waiver, such as a guilty plea, but rather a failure to object at trial
(Cawrtna^, 288 IH. App. 3d at 1031), which, as explained below (vaSraf 19) is more akin
to forfeiture. Additionally, in Cowrtnsv, the defendant had raised the issue in a posttrial
motion. Covxitasvj, 288 Ill. App. 3d at 1031. Even though the supreme court found no
knowing waiver resulting from the defendant’s guilty plea in'te.Yet, we agree with the
State that the court’s reasoning provides more guidance in addressing the issue of waiver
in the present case. We further agree with the State that the circumstances present in
9

SUBMITTED - 11972371 - Heather Thomas - 1/26/2021 12:50 PM

126769

Sestet, upon which the supreme courtfound no waiver, are not present here. In resolving
the issue of waiver, we find it useful to start by correctly defining the term.
use the
1120 The Illinois' Supreme Court has observed that Illinois law has tended to
terms “waiver” and forfeiture” interchangeably.\. ^ox^an, 385 Ill. App. 3d 771,
776 (2008) (citing

\. 'SVaxx, ;215 Ill. 2d 427, 443 (2005)). “The

court,

however, pointed out important distinctions between these two terms, when used
correctly. ‘Waiver ■ means the voluntary relinquishment of a known right. [Citation.] ”\d.
44 4

Forfeiture’ is defined as the failure to raise an issue in a timely manner, thereby barring

its consideration on appeal. [Citation.]” Id. Moreover, “[i]n Illinois, it is settled that a
constitutional right, like any other right of an accused, may be waived, and a voluntary
plea of guilty waives all errors or irregularities that are not jurisdictional. (Internal
quotation marks omitted.)v
'

1121

•

.

1.55 Ill. 2d 422, 491 (1993).
. • -

.r’v

Unlike ^stex, where there was never any disclosure of defense counsel’s previous

connection with the defendant’s particular case prior to the plea C^stex, 66 Ill. 2d at
169), here, at the first court setting after Featherstun took office as the state’s attorney,
ASA Rice brought to the circuit court’s attention that Featherstun had been originally
appointed to represent the defendant. A contested hearing was subsequently held on
January 19, 2017’, in which the underlying facts were largely undisputed. ASA Rice
argued that no conflict of interest existed because Feaihersiuu's lepiesciitation of
defendant “was completely superficial,” with no substantive interaction, and only existed
no
as a “docket entry made.” APD Quinn also agreed that Featherstun had virtually
involvement in representing defendant, other than to introduce defendant to APD Quinn,
10

i iQMiTTcn. 11Q79371 - Hpather Thomas - 1/26/2021 12:50 PM

126769

and Featherstun performed no supervisory acts involving defendant’s case. APD Quinn
explained that his continuing objection was over concern that “the appearances” of a
potential conflict of interest involving the state’s attorney’s office were clouding the
ultimate finality of this case. Following the parties’ arguments, the court ruled that no
conflict of interest existed.
122

Given that the circuit court conducted a contested hearing to determine whether to

appoint a special prosecutor, after the potential conflict issue was initially raised by ASA
Rice, defendant cannot now reasonably argue that he had no knowledge of the facts
giving rise to the potential conflict. Taking into consideration Featherstun’s nominal
involvement in defendant's initial representation, where Featherstun filed no entry of
appearance or discovery motion, made no court appearances, and held no privileged
communication or information in confidence, it is reasonable to assume that defendant
voluntarily, and perhaps strategically, abandoned his bid for a special prosecutor to enter
into a favorable plea agreement. Thus, unlike Yjastet, where the record demonstrated that
the defendant was unaware of the conflict at the time of his guilty plea, here, defendant
was perfectly aware of the potential conflict, and yet. VjMJwm^ relinquished his
challenge to the circuit court’s ruling by entering a guilty plea. We, therefore, fmd that
defendant is bound by his knowing waiver.
h 23

However, in his reply brief, defendant asserts that we should alternatively consider

“Featherstun’s conflict of interest” under the second prong of the plain error rule. In
support, defendant argues that he could not have raised the error in his posttrial motion,
which was a limited request for the circuit court to reconsider defendant’s sentence,
11

SUBMITTED-11972371 - Heather Thomas -1/26/2021 12:50 PM

126769

because Featherstun had not yet appeared to argue the motion for the State. We disagree,
and for reasons stated below, we decline to review this issue for plain error.
124 Under the plain-error doctrine, a reviewing court may consider an unpreserved and
otherwise forfeited error “(1) where the evidence in the case is so closely balanced that
the jury’s guilty verdict may have resulted from the error and not the evidence[] or
(2) where the error is so serious that the defendant was denied a substantial right[ ].and
thus a fair trial.” ?ec^\e n .VlteWm,: 235 Ill. 2d 478, 489 (2009). Our supreme court has
“emphasized that the term ‘waiver,’ as used in cases regarding [Illinois] Supreme Court
Rule 615(a) [citation] concerning plain error, has nothing to do with the voluntary
relinquishment of known rights.”

385 Ill. App. 3d at 776 (citing ^eo$\e v.

TownseW, 209 Ill. 2d 543, 547-48 (2004)). “[T]he term ‘waiver,’ as applied to Rule
615(a), concerns failure to bring an issue to .the attention of the trial court.” \&. In the
context of plain error, the term “waiver” actually means “forfeiture.'’ Vi.
1[25

We find defendant’s argument for plain error review unpersuasive because he

knowingly waived, rather, than forfeited, the claimed error. It has been explained that
“a guilty plea represents a break in the chain of events which has pteeetoV it in the
criminal process. When a criminal defendant has solemnly admitted in open court
that he is in fact guilty of the offense with which he is charged, he may not
thereafter raise independent claims relating to the deprivation uf constitutional
rights that occurred

to the entry of the guilty plea.’ (Emphases added.)
411 U.S! 258, 267 (1973).

12

iBMiTTPn. 11Q77371 - Heather Thomas - 1/26/2021 12:50 PM

126769

Because defendant pleaded guilty, any nonjurisdictional errors that occurred ^fvot to that
date were waived. See TownseW, 209 Ill. 2d at 545 (a voluntary guilty plea waives all
nonjurisdictional errors or irregularities, including constitutional ones). Thus, we are
unable to reach the merits of defendant’s claim of a conflict of interest prior to the entry
of his guilty plea.
1 26

In addition, we note defendant does not seek a rehearing on his motion to

reconsider sentence based on Featherstun’s sKfoseopscft. involvement at that hearing.
Instead, defendant seeks to set aside his guilty plea, conviction, and sentence. Thus, we
decline to review that matter for plain error, and affirm the conviction and sentence.

127
H 28

III. Conclusion
For the foregoing reasons, we affirm defendant’s conviction and sentence where

the issue raised on appeal was knowingly waived by defendant in entering a guilty plea.

If 29 : Affirmed^ :

i

13

SUBMITTED - 11972371 - Heather Thomas - 1/26/2021 12:50 PM

126769
IN THE
SUPREME COURT OF ILLINOIS
PEOPLE OF THE STATE OF
ILLINOIS;,
Respondent-Appellee,

)
)
)
)

Petition for Leave to Appeal
from the Appellate Court of
Illinois, Fifth Judicial
District, No. 5-18-0280

)

)
)
)
)

-vs-

GARRETT MCELVEEN,
Petitioner-Appellant.

)
)

There heard on Appeal from
the Circuit Court of Jefferson
County, Illinois, No. 15-CF463.
Honorable
Barry Vaughan,
Judge Presiding.

NOTICE AND PROOF OF SERVICE
Mr. Kwarhe Raoul, Attorney General, 100 W. Randolph St., 12th Floor,
Chicago, IL 60601, eserve.cnminalappeals@atg.state.il.us;
Mr. Patrick D. Daly, Deputy Director; State’s Attorneys Appellate Prosecutor,
730 East IL Hwy 15. Ste. 2, Mt. Vernon, IL 62864, 05dispos@ilsaap.org;
Mr. Sean M. Featherstun, Jefferson County State’s Attorney, 100 S. 10th St.,
Room 203. Mt. Vernon, IL 62864, Rfeatherstun@ieffil.us:
Mr. Garrett McElveen, Register No. Y27410’, Menard Correctional Center,
P.O. Box 1000, Menard, IL 62259
Under penalties as providecLby law pursuant to Section 1-109 of the Code of
Civil Procedure, the undersigned certifies that the statements set forth in this
instrument are true and correct. On January 26, 2021, the Petition for Leave to
Appeal was filed with the Clerk of the Supreme Court of Illinois using the
court’s electronic filing system in the above-entitled cause. On that same date,
we electronically served the Attorney General of Illinois and opposing counsel
by transmitting a copy from an agency email address to the email addresses of
the persons named above. One copy is being mailed to the petitioner in an
envelope deposited in a U.S. mail box in Mt. Vernon, Illinois, with proper
postage prepaid. Additionally, upon its acceptance by the court's electronic tiling
system, the undersigned will send 13 copies of the Petition for Leave to Appeal
to the Clerk of the above Court.
/s/Heather Thomas
LEGAL SECRETARY
Office of, the State Appellate Defender
909 Water Tower Circle
Mt. Vernon, IL 62864
(618) 244-3466
Service via email will be accepted at
5thdistrict.eserve@osad.state.il.us
WMiTTPn . 11077371 - Heather Thnmas - 1/26/2021 12:50 PM

https://www.leagle.com/decision/! 67209748ne3d655150

PEOPLE v. McELVEEN | 167 N.E.3d 655 (2021) | 8ne3d6551501...

o

©

o

Home / Browse Decisions / N.E.*d / l67N.E.2d / 167 N.E.3d 655 (2021)

PEOPLE v. McELVEEN
No. 126769.

Email I Print I Comments (0)

View Case
167 N.E.3d 655 (2021)
PEOPLE State ofIllinois, respondent, v. Garrett MCELVEEN, petitioner.
Supreme Court of Illinois.
March 24,2021.

i .n

OMAMM1

mI

>

PEOPLE v. McELVEEN 1167 N.E.3d 655 (2021) | 8ne3d655150 |...

https://www.Ieagle.com/decision/167209748ne3d655150

Petition for Leave to Appeal Denied.
Overstreet, J. took no part.

;

Comment
Your Name

Your Email

Comments

1000 Characters Remaining
Leagle.com reserves the right fo edit or remove comments but is under no obligation to do so, or to explain individual moderation decisions.
Corporate Social Responsibility I About Us I Contact Us

